Stephen K. Wirth
+1 202.942.6739 Direct
Stephen.Wirth@arnoldporter.com

July 29, 2019

Hon. Scott S. Harris
Clerk of Court
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
Re:

Peithman v. United States (No. 19-16)

Dear Mr. Harris:
I certify pursuant to Supreme Court Rule 33.1(h) that the Brief of the
Cato Institute as Amicus Curiae in Support of Petitioners filed in the abovereferenced case contains 4,041 words, excluding the parts of the document
that are exempted by Supreme Court Rule 33.1(d).
I declare, as a member of the Bar of this Court, that the foregoing is
true and correct.
Sincerely,

Stephen K. Wirth

Arnold & Porter Kaye Scholer LLP
601 Massachusetts Ave, NW | Washington, DC 20001-3743 | www.arnoldporter.com

